SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8000
TLOSSEAT ON@ SID LEY.COM
AMERICA • ASIA PACIFIC

• EUROPE

CERTIFICATE OF SERVICE
CAPITAL CASE
No. 20-7592
Alan Eugene Miller,
v.

Petitioner

Commissioner, Alabama Department of Corrections,
Respondent.
I, Tobias S. Loss-Eaton, do hereby certify that, on this 16th day of June, 2021,
I caused one copy and an electronic copy of the Petitioner’s Reply Brief in the
foregoing case to be served by first class mail, postage prepaid, on the following
parties:
Audrey Jordan
Lauren A. Simpson
Office of the Attorney General
501 Washington Ave.
Montgomery, AL 36130
audrey.jordan@alabamaag.gov
/s/ Tobias S. Loss-Eaton
TOBIAS S. LOSS-EATON
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
tlosseaton@sidley.com

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

